No. 19-433
IN THE SUPREME COURT OF THE UNITED STATES
PATRICK EMANUEL SUTHERLAND, PETITIONER
V.

UNITED STATES OF AMERICA
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via first-class mail, postage
prepaid, this 2' day of January 2020.
ISee Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain4514 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
January 2, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-000 1
(202) 514-2217
January 2, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0433
SUTHERLAND, PATRICK EMANUEL
USA

BARRY J. POLLACK
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K STREET, NW
WASHINGTON, DC 20006
202-775-4500
BPOLLACK@ROBBINSRUSSELL.COM

